OCKLE

Legal Briefs E-Mail Address:

C

  

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-283] www.cocklelegalbriefs.com

Pax: (402) 342-4850 No. 19-426

COMMONWEALTH OF PENNSYLVANIA,
Petitioner,

v.
MICHAEL J. HICKS,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 31st day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the AMICUS CURIAE BRIEF OF THE PENNSYLVANIA DISTRICT
ATTORNEYS ASSOCIATION IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN T. ADAMS
District Attorney of
Berks County, Pennsylvania
Past President of Pennsylvania
District Attorneys Association
PENNSYLVANIA DISTRICT
ATTORNEYS ASSOCIATION
2929 North Front Street
Harrisburg, PA 17110
(717) 238-5416
jadams@countyofberks.com
Counsel for Amicus Curiae,
Pennsylvania District Attorneys
Association

Subscribed and sworn to before me this 3 ist day of October, 2019.
[am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ,
General Notary .
State of Nebraska - Lk Qudrae-

Notary Public Affiant 38824

My Commission Expires Nov 24, 2020

 
James B. Martin, District Attorney
Lehigh County District Attorney's Office
Lehigh County Courthouse

455 W. Hamilton Street

Allentown, PA 18101-1614
JamesMartin@lehighcounty.org

(610) 782-3100

Counsel for Petitioner

Kathryn R. Smith, Assistant Public Defender
Lehigh County Public Defender’s Office
Lehigh County Courthouse

455 W. Hamilton Street

Allentown, PA 18101-1602
KathrynSmith@lehighcounty.org

(610) 782-3157

Counsel for Respondent
